BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-187
OKWUDILI FRANCIS CHUKWUANI,

Petitioner,
v.
SOLON CITY SCHOOL DISTRICT,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief in Opposition contains 3,891
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 9, 2020.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
. Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

\

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

